Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 CLIENT COOPERATION WITH
CHILD SUPPORT ENFORCEMENT
   Challenges and Strategies to Improvement




                       JUNE GIBBS BROWN
                        Inspector General

                           MARCH 2000
                          OEI-06-98-00041
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Blaine Collins
                                 Alan Levine, Program Specialist
Ruth Ann Dorrill
                               Joan Richardson, Program Specialist
Marnette Robertson
                             Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To describe challenges States face in gaining cooperation with child support enforcement from
Temporary Assistance for Needy Families (TANF) clients and strategies States use to improve
cooperation.

BACKGROUND

Federal law requires TANF recipients to cooperate with State child support enforcement agencies
in establishing paternity and in creating and enforcing child support and medical support orders.
Child support staff use the information provided by clients to locate a noncustodial parent or
putative father, establish paternity, create a child support order, and/or enforce a prior obligation.
These tasks are easier to accomplish when clients cooperate. While most TANF clients do
cooperate, some may face barriers or disincentives to cooperating. State child support and public
assistance agencies attempt to overcome these challenges through client education and procedural
improvements, and by imposing penalties on clients who do not cooperate. This report describes
challenges to improving TANF client cooperation with child support enforcement identified by
child support and public assistance staff in six focus States which we chose in order to examine a
variety of implementation experiences regarding client cooperation. It also examines strategies
these States employ to improve cooperation when clients are reluctant, or fail to cooperate. We
gathered survey information and reviewed documents from 99 local child support and 103 local
public assistance offices, and interviewed approximately 180 managers and caseworkers.

FINDINGS

Some TANF Clients Face Barriers That Prevent Them from Providing Sufficient
Information, or Otherwise Cooperating, and Some May Also Have Disincentives to
Cooperating

The majority of TANF recipients and applicants appear to cooperate with child support
enforcement. However, lack of knowledge about noncustodial parents, lack of understanding of
cooperation requirements, and limited interview time may hinder some clients from providing
information about noncustodial parents. Other logistical barriers, such as lack of transportation,
may hinder clients as they attempt to meet with child support staff. Many respondents report that
TANF clients may also have strong personal and financial incentives not to cooperate with child
support enforcement.




                                                  i
State Agencies Employ A Variety of Strategies for Surmounting Challenges to
Client Cooperation, Focusing on Improving Services and Imposing Penalties

Local offices encourage cooperation by enhancing staff interview skills to improve clients’
understanding of the benefits of child support and to elicit more complete and accurate
information about noncustodial parents. Staff also encourage cooperation by educating clients
about the potential benefits of paternity establishment and pursuing child support. Some offices
ease cooperation by completing multiple tasks during appointments at child support offices and by
assisting clients in gathering information about noncustodial parents. Staff in other offices avoid
“no-shows” by reducing the need for clients to make separate appointments at the child support
enforcement office.

When Encouragement Fails, States May Threaten or Actually Impose Penalties to
Motivate TANF Clients to Cooperate With Child Support Enforcement

Many respondents believe the threat of penalties influences TANF clients to cooperate, while a
few believe threats exert only a limited influence on clients. Nearly all public assistance
respondents report most TANF clients who are penalized eventually cooperate, regardless of the
type of penalty imposed.

RECOMMENDATIONS

Successful operation of the child support enforcement program requires effective, cooperative
action by both the Office of Child Support Enforcement and the Office of Family Assistance.
Therefore, we recommend that the Assistant Secretary for the Administration for Children and
Families (ACF) encourage States to complete the following.

Reassess Policies Requiring Redundant Client Visits to Child Support Offices
When Sufficient Information About Noncustodial Parents Has Already Been
Gathered

Evaluate Current Policies That May Create Disincentives for Client Cooperation

Train Front Line Staff in Skills Designed to Encourage Client Cooperation

Use Innovative Strategies to Make it Easier for TANF Clients to Cooperate With
Child Support Enforcement

Evaluate the Advantages and Disadvantages of Delaying Cash Assistance Until
Child Support Staff Determine an Applicant Has Initially Cooperated




                                                ii
COMPANION REPORTS


    This is one of four OIG reports on how States gain TANF client cooperation with child
    support enforcement. One companion report, Client Cooperation with Child Support
    Enforcement: Policies and Practices (OEI-06-98-00040), provides an overview of
    cooperation polices and how they are implemented by States. Another report, Client
    Cooperation with Child Support Enforcement: The Role of Public Assistance Agencies
    (OEI-06-98-00042), discusses responsibilities of public assistance agencies and
    collaboration between agencies. The remaining report, Client Cooperation with Child
    Support Enforcement: Use of Good Cause Exceptions (OEI-06-98-00043), describes how
    clients may be exempted from cooperation requirements under certain circumstances,
    especially when enforcement may put the child at risk of violence.




                                             iii
             TABLE             OF       CONTENTS


                                                   PAGE


EXECUTIVE SUMMARY                                      i


INTRODUCTION                                          1


FINDINGS


     Challenges to Client Cooperation                 4


     Strategies to Improve Client Cooperation         7


     Imposing Penalties for Noncooperation           13


RECOMMENDATIONS                                      16


ENDNOTES                                             18

                        INTRODUCTION

PURPOSE

   To describe challenges States face in gaining cooperation with child support enforcement
   from Temporary Assistance for Needy Families (TANF) clients and strategies States use
   to improve cooperation.

BACKGROUND

   Federal law has long required public assistance clients to cooperate with State child
   support enforcement authorities in establishing paternity and creating and enforcing child
   support and medical support orders. As part of a broad effort to reform the nation’s
   welfare system, Congress made significant changes to Federal policy regarding client child
   support cooperation requirements in the Personal Responsibility and Work Opportunity
   Act of 1996. Currently, unless exempted from cooperation requirements through a good
   cause or other exception,1 TANF clients must name and provide information about the
   noncustodial parent of their children, and otherwise cooperate as determined by the State.2
   Formerly, State public assistance agencies determined whether clients were cooperating
   with their State’s child support agency; however, welfare reform made State child support
   agencies responsible for determining if TANF clients are cooperating in “good faith” and
   notifying the public assistance agency of each client’s cooperation status. Before welfare
   reform, State public assistance agencies solely determined how to deal with clients who
   failed to cooperate. Now, if the child support agency determines a client has not
   cooperated, the TANF agency is required to reduce the family’s cash assistance by at least
   25 percent and, at State discretion, may deny the family all cash assistance. If a State
   public assistance agency does not enforce the penalties requested by the child support
   agency, Federal law allows for the State to be penalized up to 5 percent of their TANF
   funds.3 All these changes were made in an attempt to improve client cooperation with
   child support enforcement. While families who receive Medicaid coverage, food stamps,
   or foster care services are also required to cooperate with child support enforcement
   efforts, this report focuses on cooperation issues involving clients of the TANF program.4

   Client cooperation is a critical first step of child support enforcement. States require
   TANF clients to provide information about noncustodial parents or putative fathers, keep
   various appointments, and submit to genetic testing. Child support staff use the
   information provided by clients to locate a noncustodial parent or putative father, establish
   paternity, create a child support order, and/or enforce a prior obligation. When clients
   cooperate, these tasks are easier to accomplish. Clients, however, may face barriers or
   disincentives which keep them from cooperating. State child support and public assistance
   agencies may attempt to overcome these challenges through various strategies, including
   client education, procedural improvements, and by imposing penalties on clients who do
   not cooperate. This report describes challenges to TANF client cooperation with child


                                             1

   support enforcement as identified by child support and public assistance staff in six focus
   States. It also examines strategies these States employ to gain the cooperation of clients
   who are reluctant, or fail to cooperate.

METHODOLOGY AND SCOPE

   We used several sources of information to examine TANF client cooperation with child
   support enforcement. The primary source of information comes from self-administered
   written surveys which we mailed to local child support and public assistance offices.
   Managers and administrators from 99 local child support offices and 103 public assistance
   offices in six focus States - California, Georgia, Illinois, New Jersey, Texas and Virginia -
   returned these mail surveys regarding cooperation policies, practices, and improvement
   strategies. The quantitative data (percentage of responses) presented in this report come
   from responses to the questions in these surveys. We also gathered and reviewed agency
   documents from these same local offices, including client cooperation policy statements,
   standardized forms, examples of correspondence with clients and other agencies, outreach
   materials, and other related documents.

   We also made site visits to a subset of local offices, visiting offices in one or two cities and
   their surrounding areas in each of the six focus States. During these visits, we conducted
   interviews with approximately 180 local public assistance and child support managers and
   caseworkers. At almost all offices, we interviewed one or more managers, then separately
   interviewed two or more caseworkers. Resource constraints prevented us from directly
   interviewing clients. Finally, we conducted telephone interviews of administrators from
   each State’s child support enforcement and public assistance agency to confirm
   information regarding State policies.

   We purposively selected the six focus States to include a variety of implementation
   strategies and experiences regarding client cooperation. To achieve this variety, we
   considered many criteria, including type of penalties for noncooperation, number of good
   cause claims, number of good cause exceptions granted, outstanding program
   characteristics (innovations, privatization, etc.), status as State-administered or county-
   administered, and geographic region. We also purposively selected local child support and
   public assistance offices within these States to provide a mix of urban, suburban, mid-size,
   and rural locations. The selection of focus States does not purport to be representative of
   the nation, nor do local offices represent all offices within individual focus States. The
   selections do, however, allow for examination of client cooperation processes under
   conditions found throughout the country.

   This report relies on the perceptions of local office survey respondents and interviewees.
   These respondents provided detailed information about how cooperation policies are
   implemented, as well as the effect of cooperation requirements on office operations, staff,
   and clients. We did not attempt to independently verify the information provided by staff.
   However, the information included in the report does relate the experience of front line



                                              2

   staff who deliver services to clients on a daily basis, and who demonstrate considerable
   concern for the effectiveness of their programs.

   This study was conducted in accordance with the Quality Standards for Inspections issued
   by the President’s Council on Integrity and Efficiency.

COMPANION REPORTS

       This is one of four OIG reports on how States gain TANF client cooperation with child
       support enforcement. One companion report, Client Cooperation with Child Support
       Enforcement: Policies and Practices (OEI-06-98-00040), provides an overview of
       cooperation polices and how they are implemented by States. Another report, Client
       Cooperation with Child Support Enforcement: The Role of Public Assistance Agencies
       (OEI-06-98-00042), discusses responsibilities of public assistance agencies and
       collaboration between agencies. The remaining report, Client Cooperation with Child
       Support Enforcement: Use of Good Cause Exceptions (OEI-06-98-00043), describes how
       clients may be exempted from cooperation requirements under certain circumstances,
       especially when enforcement may put the child at risk of violence.




                                             3

                                            FINDINGS

       Child support staff in focus States report that most TANF clients provide enough useful
       information to pursue child support.5 Furthermore, staff of both agencies believe it is
       fairly easy for clients to meet their State’s cooperation requirements.6 However, our
       research also indicates that clients may face barriers that prevent them from providing
       sufficient information, or otherwise cooperating, and that they may also have incentives
       not to cooperate. To address these challenges, child support and public assistance
       agencies attempt to surmount barriers and encourage cooperation by improving
       procedures and by educating clients regarding the benefits of paternity establishment and
       child support, as well as the consequences of noncooperation. When encouragement fails,
       States impose penalties, which appear to motivate many TANF clients to cooperate.

CHALLENGES TO CLIENT COOPERATION

       Barriers, Such as Lack of Knowledge, May Hinder TANF Clients from
       Providing Information about Noncustodial Parents

       As shown in Table 1, child support and public assistance staff in focus States agree some
       clients cannot provide information about noncustodial parents because they lack the
       knowledge. Clients may either know little about a noncustodial parent or be unsure of the
       identity of the father of a child. Staff report that lack of knowledge is more frequent in
       cases with older children, because clients may not have seen or heard from the
       noncustodial parent in years. When mothers are unsure who the father of a child is,
       genetic testing can typically identify the father if the mother provides enough information
       to allow him to be tested.7

 Table 1: Barriers to Provision of Complete, Accurate Information about Noncustodial Parents

                         Barrier                       Child Support        Public Assistance
                                                       Respondents            Respondents

Client knows little about noncustodial parent          78 % (76 offices)      82 % (84 offices)

Client does not know the identity of the father           68 % (66)              64 % (65)

Client does not understand requirements                   35 % (34)              23 % (23)

Paperwork too difficult                                   18 % (17)              14 % (14)

Too little time with caseworker to build trust            13 % (13)              45 % (46)

Lack of staff training                                    11 % (11)              14 % (14)

Interview too brief to gather information                 11 % (11)              24 % (24)




                                                  4

      Even when clients have useful information, they may fail to provide it completely and
      accurately because they do not understand they are required to, and because they find the
      paperwork too difficult. Also, client interviews are often brief, and staff may not be
      adequately trained to encourage clients to provide maximum information. Almost half of
      public assistance offices (45 percent) report that TANF client interviews are too short to
      allow caseworkers the chance to gain client confidence, yet few child support offices (13
      percent) see this as a barrier. Local public assistance staff explain that gaining client
      confidence is critical to their agency’s long-term goals of helping clients find employment
      and achieve independence, as well as short-term objectives such as gathering information
      about noncustodial parents. They complain, however, that seeking personal information
      involving a client’s relationship with a noncustodial parent, particularly during initial
      interviews, often strains their efforts to gain the client’s confidence.

Some TANF Clients May Routinely Be Required to Meet With Child Support Staff
in Addition to Their Public Assistance Interview, Posing Logistical Barriers for
Clients, Such as Lack of Transportation and Inconvenient Appointment Times

      The child support agency in one focus State requires that all newly approved TANF
      recipients attend personal interviews with child support staff. Some local child support
      staff in other States also report routinely requiring interviews with all TANF clients.
      Workers suggest problems with this practice of mandatory interviews. They complain that
      many of these interviews never need to occur, often because clients have provided
      sufficient information during their interview with public assistance staff. When scheduled
      unnecessarily, these interviews tend to frustrate both the client and worker, and may make
      the client less likely to appear for appointments in the future. Therefore, staff report the
      no-show rate for these interviews is very high, often because the client knows they have
      already provided all available information. Overall, 53 percent of local child support
      respondents report most or all public assistance clients personally interview with a child
      support worker at some time during the enforcement process, 21 percent report about half
      of clients have such an interview, and 26 percent report fewer than half of TANF clients
      interview with child support staff.

      Some clients have difficulty keeping appointments with child support and public assistance
      staff for logistical reasons. Transportation to agency offices is often a problem for clients
      with limited resources, especially in some rural areas where single offices service multiple
      counties. One worker in a rural office describes, “The clients who live farther out don't
      have transportation. It's up to 40 or 50 miles. A very legitimate problem.” Staff in
      several offices report that public transportation, even bus lines, are not available as a
      practical means of traveling to their offices.

      The scheduling of appointments may also present problems. Public assistance workers
      report that clients complain of receiving notices from child support offices for
      appointments scheduled during regular business hours when the client works. Staff add
      that clients say it is often impossible to get through to child support staff on the telephone


                                                5

       to reschedule, and few offices are open after-hours to accommodate employed clients who
       cannot take time off work. Some clients also suggest to staff that they have to arrange
       child care during these scheduled appointments, but all the offices we visited seemed to
       expect children to regularly accompany adults. Several child support offices we visited
       had play areas, toys, and books available for children while their parents met with staff.

Many Agency Staff Report That Some TANF Clients Have Strong Personal
Incentives Not to Cooperate with Child Support Enforcement

       As shown in Table 2, staff believe that many clients avoid cooperating with child support
       simply because they do not want the noncustodial parent to be involved with their
       children. Staff explain that perhaps a client has developed a relationship with another
       person, and believes that child support enforcement may strain that relationship. One
       worker describes the length to which some clients will go to keep noncustodial parents out
       of their lives, “I had a lady name three wrong guys. She knew that they were not the
       father. She did ‘cooperate’, by giving names, but not the right one. She wasn't gaming
       the system. She didn't want it to be him. She named men that she might like to be the
       father first. We explained how genetic testing works, but she still tried.”

               Table 2: Staff Perception of Reasons for TANF Client Noncooperation

                                                                Child Support       Public Assistance
                         Reason                                 Respondents           Respondents

Client does not want noncustodial parent in child’s life        95 % (92 offices)    91 % (93 offices)

Client wants to protect noncustodial parent from obligation        94 % (91)            92 % (94)

Client fears loss of informal support                              88 % (85)            88 % (90)

Client does not want to establish paternity                        67 % (65)            37 % (38)

Client sees no benefit to cooperation                              64 % (62)            39 % (40)

Client fears violence from noncustodial parent                     63 % (61)            73 % (74)


       Staff also explain that some mothers fear if paternity is established the father may seek
       custody of the child or try to change visitation arrangements, especially if he is paying
       child support. Clients may fear the noncustodial parent becoming involved in the child’s
       life if the noncustodial parent is a substance abuser, is involved in criminal activity, or
       imprisoned. Some clients fear violence from the noncustodial parent, either directed at the
       child or themselves. In a companion report, we note that, while TANF clients may be
       exempted from cooperation requirements for good cause based on fear of physical harm
       from noncustodial parents, local offices in our focus States report granting very few good
       cause exceptions.8




                                                           6

Many Agency Staff Report That Some TANF Clients Have Strong Financial
Incentives Not to Cooperate with Child Support Enforcement

     Staff explain that many noncustodial parents provide informal financial support to their
     children, or in-kind support such as child care services, and may spend at least some time
     living in the client’s home or visiting their children. If noncustodial parents are required to
     pay child support through the formal system, the family may actually be worse off because
     the noncustodial parent may cease informal or in-kind support. Additionally, clients know
     that many States will retain most or all formal child support as reimbursement for public
     assistance, rather than allowing the support to go to the family. Federal law allows States
     to pass-through to the family a portion or all child support collected, and disregard this
     amount when calculating the size of cash assistance grants. At least two States currently
     use this flexibility to forward all child support collections to public assistance families, yet
     most States pass-through only 50 - 100 dollars of monthly child support collections or
     have eliminated all pass-through provisions. All six focus States we studied pass-through
     and disregard 50 dollars of any current child support collected. Staff believe that, for
     clients who receive even modest informal support from noncustodial parents, meager pass-
     through provisions provide strong financial disincentives to cooperate. Clients may also
     have little confidence that States will collect support, especially from low-income or
     unemployed noncustodial parents. Even if no child support is collected, as staff report is
     often the case, the noncustodial parent may withhold informal or in-kind support if the
     client cooperates with authorities.

     One caseworker describes what we heard repeatedly, “I think the reason [TANF clients]
     don't want to cooperate is that those who do cooperate see no benefits coming from the
     [child support] office. It doesn't matter to the parent if [CSE] collects or not. The client
     will not get any money or support. [They] may be living with him, or getting support on
     the side. They don't want to cooperate, because it will only hurt their family. They don't
     want to have the State collect their children's support, because it will hurt their children.
     They will go from getting support to not getting support. There is a $50 disregard, but
     that is a cut for someone who's been getting any real support, and not enough to matter
     to the rest. Plus, only about 10 percent of my clients have any support being collected -
     maybe less. [There is] no incentive.”

STRATEGIES TO IMPROVE CLIENT COOPERATION

     To surmount barriers and reduce disincentives to client cooperation, States employ
     various strategies, including improving staff skills to gain better cooperation, educating
     clients on the benefits of cooperation, improving procedures to ease cooperation, and
     imposing penalties to deter noncooperation.




                                                7

Local Offices Encourage Cooperation by Enhancing Staff Interview Skills for
Eliciting More Complete and Accurate Information and Improving Client
Understanding of Benefits of Cooperating

      Respondents from both agencies report making significant efforts to improve the
      interviewing skills of front line workers. Staff explain they have two basic goals to
      accomplish during interviews: to establish a positive relationship with clients; and to
      obtain as much information about noncustodial parents as possible. Workers report that
      interviewers can have a big impact on client attitude, a critical element in gaining
      cooperation. Staff appear to attempt to strike a balance in communicating with clients,
      encouraging strict compliance while remaining pleasant and respectful. Two workers
      explain how they handle interviews, “The manner in which the parents are treated will
      often affect the amount of cooperation. The interviewer should be professional,
      courteous and firm with the client.” And, “We try to make clients feel comfortable. We
      try to relate to them one-to-one. We try to make them feel empowered and a part of the
      system and explain to them why we have to do this. Sometimes they are scared or angry.
      Sometimes we have to insist, but most of the time we can take a friendly approach.”

      After establishing a positive relationship, interviewers turn their attention to the
      information provided by clients. Staff report that most TANF clients provide all they
      know, yet some apparently withhold information or give false information. Again, staff
      describe their efforts, “[You have to] hone your interviewing skills to elicit information.
      If she has a new pregnancy or baby, act interested. Say in a friendly way, “Were you
      living with the baby’s father?” “How long were you dating?” “Did you tell him you
      were pregnant?” This will encourage her to confide in you. Gently tell the reasons for
      establishing paternity and obtaining support for their child.” To improve the quality of
      information, child support workers attempt to immediately verify information through
      various data sources such as State department of motor vehicle or employment databases.
      Access to these tools helps staff quickly identify false or outdated information and ask
      follow-up questions to uncover additional details.

Local Staff Encourage Cooperation by Educating TANF Clients about
Cooperation Requirements and the Potential Benefits of Pursuing Child Support

      Local child support and public assistance staff in focus States agree that educating clients
      regarding cooperation requirements, and on the benefits of cooperating, is one of the most
      effective ways they have to improve client cooperation with child support enforcement.
      Caseworkers are likely to address cooperation requirements during individual interviews,
      but report that clients may not always fully understand what is expected.9 Staff also report
      this lack of understanding can create a barrier to client cooperation (Table 1).
      Caseworkers discuss the benefits of cooperating either in person during these same
      interviews, or in group orientation sessions. These group sessions are likely to be offered
      several times a month, as needed, and may include information on paternity establishment
      and support collections.


                                               8

     Staff report spending significant time explaining the long-term benefits of child support
     enforcement and discussing other reasons why TANF clients should cooperate.
     Caseworkers often describe child support as a possible source of income the client can
     access after their time-limited cash assistance runs out, or as a supplement to income from
     employment. When clients suggest the noncustodial parent is unemployed or has few
     resources to pursue, staff explain that those circumstances are likely to change as the
     noncustodial parent ages. Workers also explain that it is the responsibility of the
     noncustodial parent to support the children and that it is unfair for the client to shoulder
     this burden alone. If the noncustodial parent has children in another household,
     caseworkers emphasize that those other children may be getting support to the detriment
     of the client’s child. If workers suspect the noncustodial parent is actually providing
     informal support to the family, staff often react as one worker describes, “A lot of times
     the guy might be giving them money instead of paying child support, but I try to inform
     them that if they don't go through the courts, then that guy can disappear anytime, and
     without an order we can't do anything to help her.” Finally, in cases in which paternity
     has not been established, staff remind clients that children have the right to know their
     father, to have a relationship with him, to have access to medical history information, and
     to be a possible beneficiary of Social Security or other benefits.

Local Staff Encourage Cooperation by Reducing the Need for TANF Clients to
Make Separate Appointments at the Child Support Enforcement Office

     Failure to keep appointments is the most frequent reason clients are considered
     noncooperative with child support enforcement cooperation requirements in many offices.
     Child support workers describe the severity of this problem, “No-shows at child support
     are the typical reason for noncooperation with child support.” And, “We average only a
     30 percent rate of appearance for first interviews.” To combat this problem, many
     offices avoid ever having clients come to the child support office. Offices use five
     strategies to accomplish this: relying on information gathered by public assistance staff;
     co-locating or out-stationing child support staff at public assistance offices; mailing
     documents to clients for completion and return; conducting telephone interviews; and
     conducting video conference interviews.

     Information From Public Assistance Interviews

     During typical application and re-determination interviews, public assistance caseworkers
     ask TANF clients to provide information about noncustodial parents. While child support
     workers are concerned about the completeness and accuracy of this information, it may
     still be sufficient for child support enforcement. Information can be sufficient especially
     when critical facts are obtained, such as the noncustodial parent’s Social Security number,
     driver’s license number, current address, or current employer. Some child support offices
     report they rely heavily on noncustodial parent information collected by public assistance
     workers, while others report that this information is merely a starting point for casework.10




                                               9

       Information From Co-located Child Support Staff

       All six focus States use co-location or out-stationing of child support staff in at least some
       local public assistance offices. In one focus State, child support and public assistance
       workers are employees of the same agency and are co-located in every county of the
       State. In other focus States, child support workers are assigned to work at public
       assistance offices on regular or periodic schedules. Areas with larger caseloads tend to
       have full-time, out-stationed workers, while rural areas tend to send child support workers
       to public assistance offices less frequently. One worker describes, “Once a month I visit
       each one of my four counties to talk to the people that for whatever reason cannot
       provide the information by mail or phone. So I go to one county this week, another one
       next week, etc. I schedule clients so I can handle them all in one day.”

       Information Requested by Mail

       Some local child support offices mail clients various documents in advance of, or in lieu
       of, personal interviews at agency offices. One office we visited primarily uses the mail to
       facilitate interaction with clients. Staff from this office report they often only need to
       personally interview about 5 percent of clients. As a caseworker describes, “They don't
       come here very much. We send out the [questionnaire] and they complete it and send it
       back. Then we often make phone contact to fill in the incomplete information. The
       [questionnaire] is long and tedious. It also asks very personal questions and some
       people feel uncomfortable putting some of that on paper.”

       Table 3 lists the items child support offices most frequently mail to TANF clients. In
       addition to allowing some clients to avoid coming to the child support office, staff report
       that clients who receive program information and checklists in advance are better prepared
       to cooperate if they eventually have a personal interview because they know what will be
       expected of them.

                Table 3: Items Which Child Support Offices Mail to TANF Clients

                                 Item                                      Percent of Respondents*

Questionnaire about Noncustodial Parents                                         60 % (52 offices)

Checklist of Noncustodial Parents Information Needed                                 60 % (52)

Information about the Consequences of Failure to Cooperate                           56 % (49)

Information about Cooperation Requirements                                           46 % (40)

Child Support Application                                                            34 % (30)

Voluntary Paternity Acknowledgment Form                                              21 % (18)

* Percent of child support respondents who report mailing documents to TANF clients from among the 87
offices that report mailing any documents to clients.



                                                       10

As mentioned above, staff report one serious concern regarding mailing documents to
clients for completion and return. Clients often have difficulty accurately completing
detailed documents and may be reluctant to write down confidential information. As
explained by one worker, “Our biggest problem or our biggest barrier is getting a form
completed. It’s a confidential information gathering letter that our attorneys have grown
terribly attached to. They will not proceed without that form completed, signed and
dated, with no discrepancies in it. If we cannot accomplish that by mail, then we have to
sit down and have a staff member take [the client] through it.”

Information from Telephone Interviews

Many local child support offices interview clients by telephone, whether as the primary
information collection method or as follow-up to previous contact. One State has a policy
which requires child support workers to be available in person or by telephone to
interview all new applicants for public assistance. Staff report that telephone interviews
speed the enforcement process because it may be faster to contact parents by telephone
than to arrange and wait for an in-person appointment.

While telephone interviewing can be an effective information gathering tool, staff report
the method has three significant weaknesses. First, some clients do not have telephone
service or may be difficult to reach by phone. Second, it may be difficult for some clients
to reach caseworkers when returning calls due to inadequate agency phone systems. Staff
report callers to child support offices may experience frequent busy signals and long waits
on hold. Finally, caseworkers explain they like to see the client’s face during interviews to
help establish good rapport and to get signals about when to ask additional questions on
particular topics. Telephone interviewing obviously deprives caseworkers of these ‘visual’
tools. To address one of these weaknesses, staff in several child support offices describe
efforts to improve their procedures for handling phone calls, and customer service
generally, “We have a public service staff in our call center who pull up records to
obtain the status of cases. We were one of the first counties to get this capability, but
many other counties are beginning this practice. Phone calls were inundating staff, and
they were not able to get work done. The operators are highly trained, and can answer
most questions over the phone, almost like case managers. They can make referrals, and
know local resources. The support officers will take the most complex calls, but usually
the phone staff handle things.”

Information from Video Conference Interviews

One of the 24 local child support offices we visited is utilizing video conference
technology to facilitate client interviews with child support workers. This office has
clients spread over twelve mostly rural counties, each of which has a local public
assistance office. Through video conferencing, clients who are already at the public
assistance office for application or re-determination interviews may speak directly with
child support workers seeking information about noncustodial parents. Although the



                                         11

      technology had only been used for two months at the time of our visit, staff report
      favorable first impressions and a few significant benefits. First, clients were spared from a
      trip to the child support office. Second, child support staff felt they obtained better
      information than they might have on the telephone. Caseworkers attribute these better
      results to clients feeling more comfortable because they can see the interviewer and
      because the client’s public assistance worker, with whom many clients develop a close
      relationship, is also present for the video conference call. Additionally, interviewers can
      see clients, making it easier to pick up body language and other signals and ask more
      pointed and timely follow-up questions.

Local Staff Encourage Cooperation by Completing Multiple Tasks During
Appointments at Child Support Offices and Assisting TANF Clients in Gathering
Information about Noncustodial Parents

      When clients do attend appointments at local child support offices, staff attempt to
      accomplish as much as possible, depending on the needs of the case. In addition to
      eliciting information about noncustodial parents, many offices also help clients voluntarily
      acknowledge paternity and may arrange for meetings between parents. For example,
      some local child support offices hold special “paternity” or “support” days in which staff
      meet with clients and putative fathers or noncustodial parents to seek agreement on terms
      for child support. Additionally, many local offices are equipped to collect genetic samples
      from clients, children, and putative fathers. Staff suggest that collecting genetic samples
      from clients who already have appointments at child support offices eases cooperation,
      because it avoids requiring clients to make a second trip to submit samples.

One of Our Study’s Focus States Encourages Cooperation by Delaying TANF
Benefits Until Child Support Staff Deems an Applicant Cooperative

      Federal welfare reform legislation places the responsibility for determining whether a
      TANF client is cooperating with the child support enforcement agency. In many local
      areas of most focus States, child support staff do not have an opportunity to make this
      determination until after a new client is already receiving benefits, because the case is not
      referred to the child support agency until after the applicant is approved for assistance. In
      one focus State, however, individuals may not proceed with their application for cash
      assistance until they interview with child support staff and are determined to have initially
      cooperated. In this State, child support and public assistance workers are employees of
      the same agency and are co-located in every county of the State. TANF applicants who
      provide information about noncustodial parents and agree to cooperate in the future are
      given a certificate of cooperation to present to public assistance staff to demonstrate their
      cooperation with child support enforcement. One benefit of this pre-approval process is
      that child support staff may obtain and verify information sooner, and immediately begin
      working the case. Child support workers indicate that at the time of application clients
      often have the best information they will ever have about noncustodial parents.



                                               12

      Additionally, some workers suggest they have more leverage to gain cooperation when
      clients are still in need of benefits, than when clients are already receiving cash assistance.
      One worker notes, “At the initial interview, they are wanting help so they are more likely
      to give information. At that time, [cooperating is] just one more thing and they wouldn't
      think about it.”

      However, some child support staff argue that if pre-approval cooperation determinations
      require child support staff to interview all TANF applicants, this will unnecessarily waste
      staff time because some applicants will be denied assistance, and may never enter the child
      support caseload. They argue that the agency receives little gain from any time child
      support staff spend interviewing applicants who are subsequently denied benefits.
      Additionally, they argue that since public assistance workers do gain sufficient information
      in some cases, the best policy is to require an interview with child support workers only
      after an applicant is approved for benefits, and then only if additional information is
      required to pursue support. On the other hand, proponents of pre-approval by child
      support staff argue that if an applicant needs child support services, an initial child support
      interview is a proper agency function, regardless of whether the family is eventually
      approved for TANF.

IMPOSING PENALTIES FOR NONCOOPERATION

      In lieu of, or in addition to, the strategies discussed above, States also encourage
      cooperation by penalizing TANF clients who fail to cooperate. Cash penalties for
      noncooperation with child support enforcement in our six focus States range from the
      Federally-mandated 25 percent reduction in the family’s cash assistance, to a “full-family”
      penalty which eliminates all cash assistance to the family of a TANF client who fails to
      cooperate.11 Staff indicate that the ultimate effectiveness of penalties as a strategy to
      improve cooperation appears to rely upon three factors: whether clients believe that
      penalties will be imposed; whether penalties are actually imposed; and the size of penalties
      relative to the total public assistance a client receives.

Many Agency Staff Believe the Threat of Penalties Influences TANF Clients to
Cooperate, While a Few Believe Threats Exert Only a Limited Influence

      As shown in Table 4, 54 percent of public assistance and 42 percent of child support staff
      feel that the threat of penalties for noncooperation strongly influences TANF clients to
      cooperate with child support enforcement. Only 9 percent of public assistance and 21
      percent of child support respondents believe the threat of penalties has weak or no
      influence on client cooperation. These perceptions are consistent with the evidence that
      most TANF clients and applicants cooperate as required, without having penalties actually
      imposed.




                                                13

 Table 4: Staff Perception of How Threat of Penalties Influences TANF Client Cooperation

                                                 Child Support                Public Assistance
           Level of Influence                    Respondents                    Respondents

 Very Strong Influence                             15 % (15 offices)              17 % (17 offices)

 Strong Influence                                  27 % (27)                      37 % (38)

 Moderate Influence                                37 % (37)                      37 % (37)

 Weak Influence                                    19 % (19)                       9 % (9)

 No Influence                                       2 % (2)                        0 % (0)


        Our research suggests two possible explanations for why the threat of penalties may have
        limited influence on some clients. First, it appears possible that the threat of penalties has
        less influence on TANF clients who receive lower benefits than those receiving higher
        benefits. Eighty percent of the 30 respondents expressing a belief that the threat of
        penalties has only weak or no influence on client cooperation work at local offices in the
        three focus States having the lowest cash benefit levels. Second, respondents suggest that
        some clients doubt that threatened penalties will actually be imposed and, therefore, may
        not respond to threats.

Nearly all Public Assistance Staff Report Most TANF Clients Who Are Penalized
Eventually Cooperate, Regardless of the Type of Penalty

        As shown in Table 5, 90 percent of local public assistance offices report that TANF clients
        who have been penalized for noncooperation with child support enforcement eventually
        cooperate most of the time or frequently. The remaining 10 percent of respondents report
        that clients only sometimes or rarely cooperate after being penalized. As one worker
        states, “They will usually have excuses for missed appointments. Once they are actually
        sanctioned, cooperation follows.”

        We examined local office responses regarding whether penalized clients eventually
        cooperate by State characteristics, to examine if stiffer (full-family) penalties are seen as
        having greater influence on clients than lesser (partial) penalties. Our small, purposive
        sample did not yield data to definitively determine which type of penalties have the most
        impact on clients. Nevertheless, we can offer several observations based on staff
        responses.

        First, staff of both agencies report that TANF clients are most likely to act in response to
        the first cash penalty, whether that involves a full or partial reduction in benefits. Staff
        suggest that States which impose stiffer penalties after some period of time are unlikely to
        influence clients to cooperate much beyond the effect of the initial penalty. One worker
        explains, “It depends on the client. We only hear from a percentage of the women we
        sanction. The others are not going to cooperate with us no matter what. They will take


                                                  14

       the grant money as long as possible, and not get assistance once we cut them off.
       Closing the case does not do the trick. She will cooperate when we first reduce the check,
       or else she is not going to cooperate at all.”

Table 5: Local Public Assistance Staff Perceptions of Client Cooperation After Being Penalized

                States                           Frequency of TANF Client Cooperation
         by type of penalties
       and cash benefits levels              Most of the Time                Sometimes
                                              or Frequently                   or Rarely

All Focus States                              90 % (87 offices)            10 % (10 offices)

   States with Immediate
   Full-family Penalties                      85 % (29)                    15 % (5)

   States with Initial
   Partial Penalties                          92 % (58)                     8 % (5)

       States with High Benefits              97 % (35)                     3 % (1)

       States with Low Benefits               76 % (13)                    24 % (4)


       Second, as shown in Table 5, a higher percentage of respondents from focus States which
       initially impose only partial cash penalties (92 percent) report that most TANF clients
       eventually cooperate, compared to respondents from focus States with full-family
       penalties (85 percent). Surprisingly, based on public assistance staff responses, partial
       penalties appear to have at least as much influence on client cooperation as full-family
       penalties.

       Third, among focus States which initially impose partial penalties, staff from States with
       relatively high cash benefits perceive penalties as having greater influence (97 percent)
       than do staff from low cash benefits States (76 percent). One apparent explanation is that
       TANF clients in States with low cash benefits tend to receive higher food stamp benefits,
       and therefore, may not miss the small cash reduction caused by a partial penalty.

       Finally, staff suggest that access to public assistance other than cash benefits may affect
       how much influence penalties have on client cooperation. One worker explains, “Some
       clients have their needs removed and just go on with TANF at a lower benefit. All we can
       do is cut $75 - $80 off their grant. They still get their housing, their WIC, their
       Medicaid, and food stamps. So the sanction is not effective to get them to cooperate.”




                                               15

                    RECOMMENDATIONS

      Successful operation of the child support enforcement program requires effective,
      cooperative action by both the Office of Child Support Enforcement and the Office of
      Family Assistance. Therefore, we recommend that the Assistant Secretary for the
      Administration for Children and Families (ACF) encourage States to:

Reassess Policies Requiring Redundant Client Visits to Child Support Offices
When Sufficient Information about Noncustodial Parents Has Already Been
Gathered

      Most States we studied attempt to avoid having TANF clients visit child support offices
      unless absolutely necessary. However, one of our focus States’ computer system
      automatically schedules all new TANF clients for appointments at their local child support
      office. State policies which require all clients to appear at child support offices, even
      when the client has previously provided sufficient information for child support
      enforcement, are counterproductive because they frustrate both staff and clients, and may
      delay enforcement. As ACF and States work to improve the quality of information
      gathered during initial interviews at public assistance offices, they should discourage
      policies which require redundant efforts.

Evaluate Policies That May Create Disincentives for Client Cooperation

      Staff suggest that cooperation with child support enforcement may actually make some
      TANF families worse off financially because noncustodial parents may stop providing
      informal or in-kind support to clients who provide information to the State. Additionally,
      many clients appear to have little faith that collections will occur, and know that many
      States retain most or all child support collected on behalf of families receiving TANF cash
      assistance. Considering that welfare reform empowered States with broad flexibility to
      implement policies to assist needy families, ACF should encourage States to evaluate
      whether their current pass-through policies and treatment of in-kind support are counter-
      productive to long-term goals of helping clients attain independence and self-sufficiency.

Train Front Line Staff in Skills Designed to Encourage Client Cooperation

      Some TANF clients do not fully understand cooperation requirements or the benefits of
      cooperating with paternity establishment efforts and child support enforcement. Staff
      suggest that educating clients improves their cooperation. ACF should assist State
      agencies in providing local office staff training needed to insure they educate clients on
      what is required and how they might benefit.




                                               16

Use Innovative Strategies to Make it Easier for TANF Clients to Cooperate With
Child Support Enforcement

      Some States have changed their procedures to make it easier for clients to cooperate. For
      instance, some areas avoid having clients come to local child support offices through
      methods such as mailing requests for information to clients, video conferencing, and out-
      stationing child support staff at public assistance offices. When appointments at child
      support offices do occur, local offices may attempt to complete multiple tasks, including
      signing voluntary paternity acknowledgment forms and collecting genetic testing samples.
      ACF should encourage appropriate State use of these and other strategies for enhancing
      client cooperation.

Evaluate the Advantages and Disadvantages of Delaying Cash Assistance Until
Child Support Staff Determine an Applicant Has Initially Cooperated

      While States must require client cooperation with child support enforcement as a criterion
      for participation in the TANF program, one focus State will not approve new applicants
      for benefits until the child support agency certifies that the client has at least initially
      cooperated. Staff suggest that such a policy improves client cooperation because
      individuals are often more willing and able to provide useful information about
      noncustodial parents at the early stages of the application process. ACF should encourage
      States to evaluate whether adoption of such a policy could improve cooperation in States
      that do not currently require such pre-approval determinations by child support staff. Of
      course, States should continue to assure that emergency assistance is readily available for
      applicants in dire need.

      ACF did not provide comments in response to our draft report and recommendations.




                                               17

                                  ENDNOTES

1.	    See our companion report, Client Cooperation With Child Support Enforcement: Use of
       Good Cause Exceptions, OEI-06-98-00043, 2000.

2.     Social Security Act, Title IV, Part A., Sec. 408 (2).

3.     Social Security Act, Title IV, Part A., Sec. 409 (5).

4.	    For information regarding gaining client cooperation with child support enforcement from
       individuals receiving Medicaid, but not TANF, see our report, Client Cooperation with
       Child Support Enforcement: Medicaid-Only Clients, OEI 06-98-00045, 2000.

5.	    Fifty-five percent of child support offices report that custodial parents provide enough
       information about noncustodial parents to successfully pursue child support enforcement
       often or very often. Another 35 percent report that clients provide this level of
       information about half the time, and only 10 percent indicate clients do so less than half
       the time.

6.	    Eighty-nine percent of child support and 90 percent of public assistance respondents
       report that it is at least somewhat easy for clients to meet cooperation requirements.
       About three-quarters of these respondents from each agency said cooperating was easy or
       very easy for clients.

7. 	   See our report, Paternity Establishment: States Use of Genetic Testing, OEI 06-98-00054,
       September, 1999.

8.     Ibid., OEI 06-98-00043, 2000.

9.	    For further information regarding client understanding of cooperation requirements, see
       our companion report, Client Cooperation With Child Support Enforcement: Policies and
       Practices, OEI 06-98-00040, 2000.

10.	   See our companion reports, ibid, OEI 06-98-00040, and Client Cooperation With Child
       Support Enforcement: The Role of Public Assistance Agencies, OEI 06-98-00042, 2000.

11.    Ibid., OEI 06-98-00040, 2000.




                                                18

